Hittteh jiiaies Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted September 30,2020
Decided October 7, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 18-1087
ANTUAN V. LITTLE,
Petitioner-Appellant,

v.
DAN CROMWELL,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 18-CV-932-JPS
J.P. Stadtmueller,
Judge.
ORDER

Antuan Little has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and a request for a certificate of appealability. We have reviewed the
final order of the district court and the record on appeal. We find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Little's supplemental motion.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ANTUAN VALENTINO LITTLE,
Petitioner,

Case No. 16-CV-805-JPS

v.

WARDEN BRIAN FOSTER,
Respondent.

ORDER

Petitioner, Antuan Valentino Little ("Little"), was convicted of firstdegree sexual assault of a child and exposing a child to harmful materials
after a jury trial held in Milwaukee County Circuit Court. After being
denied postconviction relief by the Wisconsin courts, he now seeks a writ
of habeas corpus from this Court pursuant to 28 U.S.C. § 2254. (Docket #1).
After screening Little's petition and evaluating his requests to remove
certain claims, see (Docket #12, #21, #34), two grounds for relief remain: (1)
ineffective assistance of counsel arising from a failure to introduce
evidence of the victim's prior sexual assault allegation against another
man; and (2) denial of due process arising from the trial court's failure to
order a new trial based on newly discovered evidence that the victim's
father pressured her into testifying against Little at trial. The parties have
now fully briefed their respective positions. For the reasons stated below,
the Court finds that Little's petition is without merit and must be denied.
1.

STANDARD OF REVIEW
State criminal convictions are generally considered final. Review

may be had in federal court only on limited grounds. To obtain habeas

Case 2:16-CV-00805-JPS Filed 11/15/17 Page 1 of 20 Document 40

i
$

' ' :v

j

relief from a state conviction, 28 U.S.C. § 2254(d)(1) (as amended by the
Antiterrorism and Effective Death Penalty Act ("AEDPA")) requires the
petitioner to show that the state court's decision on the merits of his
constitutional claims was contrary to, or involved an unreasonable
application of, clearly established federal law as determined by the United
States Supreme Court. 28 U.S.C. § 2254(d)(1); Brown v. Payton, 544 U.S. 133,
141 (2005). The burden of proof rests with the petitioner. Cullen v.
Pinholster, 563 U.S. 170, 181 (2011). The relevant decision for this Court to
review is that of the last state court to rule on the merits of the petitioner's
claim. Charlton v. Davis, 439 F.3d 369, 374 (7th Cir. 2006). ___ ___ ________
A state-court decision runs contrary to clearly established Supreme
Court precedent “if it applies a rule that contradicts the governing law set
forth in [those] cases, or if it confronts a set of facts that is materially
indistinguishable from a decision of [the Supreme] Court but reaches a
different result." Brown, 544 U.S. at 141. Similarly, a state court
unreasonably applies clearly established Supreme Court .precedent when
it a

pplies that precedent to the facts in an objectively unreasonable

manner. Id.; Bailey v. Lemke, 735 F.3d 945, 949 (7th Cir. 2013).
The AF.DPA undoubtedly mandates a deferential standard of
review. The Supreme Court has “emphasized with rather unexpected
vigor" the strict limits imposed by Congress on the authority of federal
habeas courts to overturn state criminal convictions. Price v. Thurmer, 637
F 3d 831, 839 (7th Cir. 2011). It is not enough for the petitioner to prove the
state courts were wrong; he must also prove they acted unreasonably.
Harrington v. Richter, 562 U.S. 86, 101 (2005); Campbell v. Smith, 770 F.3d
540,

546 (7th Cir. 2014) ("An 'unreasonable application of' federal law

Page 2 of 20

Case 2:16-cv-00805-JPS Filed 11/15/17 Page 2 of 20 Document 40

means 'objectively unreasonable, not merely wrong; even 'clear error' will
not suffice.'") (quoting White v. Woodall, 134 S. Ct. 1697,1702 (2014)).
Indeed, the habeas petition must demonstrate that the state court
decision is "so erroneous that 'there is no possibility fairminded jurists
could disagree that the state court's decision conflicts with [the Supreme]
Court's precedents.'" Nevada v. Jackson, 133 S. Ct. 1990, 1992 (2013)
(quoting Harrington, 562 U.S. at 102). The state court decisions must "be
given the benefit of the doubt." Woodford v. Visciotti, 537 U.S. 19, 24 (2002);
Hartjes v. Endicott, 456 F.3d 786, 792 (7th Cir. 2006). Further, when a state
court applies general constitutional standards, it is afforded even more
latitude under the AEDPA in reaching decisions based on those standards.
Knowles v. Mirzayance, 556 U.S. Ill, 123 (2009); Yarborough v. Alvarado, 541
U.S. 652, 664 (2004) ("[Evaluating whether a rule application was
unreasonable requires considering the rule's specificity. The more general
the rule, the more leeway courts have in reaching outcomes in case-by­
case determinations.").
As the Supreme Court has explained, "[i]f this standard is difficult
to meet, that is because it was meant to be." Harrington, 562 U.S. at 102.
Section 2254(d) stops just short of "imposing a complete bar on federalcourt relitigation of claims already rejected in state proceedings." See id.
This is so because "habeas corpus is a 'guard against extreme
malfunctions in the state criminal justice systems,' not a substitute for
ordinary error correction through appeal." Id. at 102-103 (quoting Jackson
v. Virginia, 443 U.S. 307, 332 n.5 (1979) (Stevens, J., concurring)).
A federal court may also grant habeas relief on the alternative
ground that the state court's adjudication of a constitutional claim was
based upon an unreasonable determination of the facts in light of the
Page 3 of 20

Case 2:16-cv-00805-JPS Filed 11/15/17 Page 3 of 20 Document 40

evidence presented. 28 U.S.C. § 2254(d)(2). The underlying state court
findings of fact and credibility determinations against the petitioner are,
however, presumed correct. Neivman v. Harrington, 726 F.3d 921, 928 (7th
Cir. 2013). The petitioner overcomes that presumption only if he proves by
clear and convincing evidence that those findings are wrong. 28 U.S.C. §
2254(e)(1); Campbell,

770 F.3d

at 546.

"A decision 'involves an

unreasonable determination of the facts if it rests upon factfinding that
ignores the clear and convincing weight of the evidence.'" Bailey, 735 F.3d
at 949-50 (quoting Gondy v. Basinger, 604 F.3d 394, 399M00 (7th Cir. 2010)).
"'[A] state-court factual determination is not unreasonable merely because
the federal habeas court would have reached a different conclusion in the
first instance.'" Burt v. Titlow, 134 S. Ct. 10, 15 (2013) (quoting Wood v.
Allen, 558 U.S. 290, 301 (2010)). If shown, however, an unreasonable
factual determination means that this Court must review the claim in
question de novo. Carlson v. Jess, 526 F,3d 1018, 1024 (7th Cir. 2008).
2.

BACKGROUND
As noted above, Little was convicted of first-degree sexual assault

of a child and exposing a child to harmful materials after a jury trial held
in Milwaukee County Circuit Court on Tanuary 27-29, 2010. Fie was
sentenced to eleven years in prison to be followed by six years of extended
supervision.
The victim, identified as "J.B.," testified at Little's trial. She stated
that in 2007, when she was only ten years old, Little forced her to rub his
penis wrapped in a sandwich bag to the point of ejaculation. This
occurred at some point between November 1, 2003 and August 30, 2005,
when she and her mother lived with Little in Milwaukee. Little also made
J.B. watch a pornographic video kept hidden under her mother s bed on at
Page 4 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 4 of 20 Document 40

least one occasion during the same time frame. These offenses occurred
when Little was left alone with J.B. and her siblings while their mother
was away at work during the day.
J.B. did not initially tell her mother about Little's sexual misconduct
because she was afraid her mother would not believe her and she knew
that her mother loved Little. Rather than tell her mother, J.B. first told her
cousin in 2007 about the sexual misconduct. Her cousin then told her
uncle who, in turn, told her biological father, Humberto Rangel
("Rangel"), who reported it to police in 2009, after J.B. came to live with
him upon his release from jail.
J.B. first disclosed the sexual abuse by Little to police in June 2007
while they were investigating an alleged sexual assault by another man,
Michael C., against her younger sister. When J.B. reported the incident to
Milwaukee Sensitive Crimes Police Officer Karla Lehman ("Lehman"), she
wrote a note imploring: "Please, please, please, please, please don't tell my
mom," alongside a drawing of a frowning face with tears falling. (Docket
#15-17 at 37). J.B. also drew a star on the note inside of which she drew a
heart with the words, "I love my mother and my dad." Id. at 38. During
her interview with Lehman, J.B. accused both Little and Michael C. of
sexual assault.
Police referred J.B.'s 2007 allegations against Little and Michael C.
to the district attorney. However, neither man was charged. The district
attorney noted both that J.B. "had several inconsistencies in her story" and
that J.B. had recanted her allegations against Little. J.B. admitted that she
had intentionally lied to Lehman concerning Little's assaults because "she
was angry with him." (Docket #15-9 at 25). J.B. also told her mother later
in 2007 that she had lied and that Little had not abused her. J.B. recanted
Page 5 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 5 of 20 Document 40

to her mother because she did not want her mother to feel bad. As
discussed further below, J.B. never recanted her allegations against
Michael C. See infra Part 3.1.
As noted above, J.B. started living with Rangel in June 2009 after he
was released from jail. Rangel took J.B. for a walk in early August and
asked whether Little did anything to her as his brother (and her uncle)
had reported. J.B. turned red and did not provide details but confirmed
that Little had sexually abused her. Rangel reported this to police and
took J.B. to the police station a few days later. Rangel told police that he
wanted_"those guys that molested his daughter put in jail." (Docket #15-9
at 28).
Lehman interviewed J.B. on August 19, 2009, at Rangel s urging. At
trial, Lehman described J.B.'s demeanor and the details of her account as
being similar to her 2007 interview and to her trial testimony, which took
place the day before Lehman testified. Little's theory of defense at trial
was that J.B. lied so she could live with her biological father, rather than
with Little and her mother.
On direct review, Little argued that his trial attorney was
inpffpctive for not introducing evidence under Wis. Stat. §§ 971.31(11) and
972.11(2)(b)(3) that J.B. falsely accused another man of sexual assault. This
was the same man, Michael C., who was investigated for sexually
assaulting her sister. The trial court summarily denied relief because Little
made an insufficient showing that J.B.'s sexual assault allegation against
Michael C. was false.1
Tn Wisconsin, postconviction relief may be sought simultaneously with a
direct appeal. Hence, the trial court first ruled on this claim before it reached the
Court of Appeals. See (Docket #15-21).
Page 6 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 6 of 20 Documents

The Wisconsin Court of Appeals agreed in a per curiam decision
issued January 3, 2013. The court, applying State v. Ringer, 785 N.W.2d
448, 460 (Wis. 2010), held that merely showing that Michael C. would
deny any wrongdoing and was not charged did not sufficiently allege that
J.B.'s 2007 sexual assault allegation against him was untrue. Without
more, the court held, "no reasonable jury would be able to conclude that
the prior allegations were, in fact, false." (Docket #15-2 at 3). The
Wisconsin Supreme Court denied Little's petition for review June 12, 2013.
On collateral review, Little moved for a new trial on the ground
that J.B.'s father, Rangel, admitted that he pressured her to testify at trial
against her wishes. Little presented an affidavit from Rangel stating that,
because he believed J.B.'s allegations against Little, he pressured her to
testify to ensure Little was convicted. The trial court denied the motion on
April 30, 2014, after holding that there was nothing in Rangel's
uncorroborated affidavit to support the conclusion that J.B. lied at trial or
that there was a reasonable probability of a different verdict had Rangel
testified that he pressured his daughter to testify. The Wisconsin Court of
Appeals affirmed in a decision issued September 22, 2015, finding that
evidence of Rangel's pressuring J.B. to testify against Little did not rise to
the level of a due process violation and Little failed to prove a reasonable
probability of a different outcome. The Wisconsin Supreme Court denied
Little's petition for review on January 7, 2016.
Little filed this habeas corpus petition on June 24, 2016. Little
renewed his claims that trial counsel was ineffective for not introducing
evidence of J.B.'s supposed untruthful allegation of sexual assault against
Michael C., and that he was denied due process when the state courts

Page 7 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 7 of 20 Document 40

would not grant him a new trial to introduce evidence that J.B.'s father
pressured her to testify against Little.2
3.

ANALYSIS
3.1

Ineffective Assistance of Counsel

Little theorizes that his lawyer was constitutionally ineffective for
failing to seek introduction of testimony from Michael C. regarding J.B.'s
allegedly untruthful allegations of sexual assault against him. Counsel is
afforded deference in making strategic litigation decisions. See Strickland v.
Washington, 466 U.S. 668, 694 (1984). In order to prove ineffective
assistance of counsel, the movant must show that counsel's performance
was deficient and that "there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have
been different." Id. Moreover, it must be remembered that the Court's
review is cabined by the deference it must pay to the Wisconsin Court of
Appeals' decision on the claim. Knowles, 556 U.S. at 123. Under the
AEDPA, "establishing that a state court's application of the Strickland
standard was 'unreasonable' is a tall task, and 'only a clear error in
applying Strickland will support a writ of habeas corpus.'" McAfee v.
Thurmer, 589 F.3d 353, 356 (7th Cir. 2009) (quoting Allen v. Chandler, 555
F.3d 596, 600 (7th Cir. 2009)).
Because Little's underlying claim has no merit, his counsel cannot
have been ineffective for failing to raise it. See Warren v. Baenen, 712 F.3d
1090, 1104 (7th Cir. 2013). Little has not shown that the Wisconsin Court of
Appeals erred in concluding that Michael C.'s testimony was inadmissible
2Little also presented other unexhausted claims in his petition on which
he was not permitted to proceed. See (Docket #34). Further, Little attempted to
add several claims to his petition, but these were not previously exhausted and
he abandoned them. See (Docket #31).
Page 8 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 8 of 20 Document 40

under Wisconsin's rape shield law, Wis. Stat. § 972.11(2)(b). The Court of
Appeals reasoned as follows:
Little first argues that his lawyer ineffectively
represented him because his lawyer did not seek admission
of evidence that Jasmine B. previously made what he
characterizes as untruthful allegations that another man,
Michael C., had sexually assaulted her. '"[I]n order to admit
evidence of alleged prior untruthful allegations of sexual
assault'. . .the circuit court must first conclude from the
proffered evidence that a jury could reasonably find that the
complainant made prior untruthful allegations of sexual
assault." State v. Ringer, 2010 WI69,131, 326 Wis. 2d 351, 785
N.W.2d 448 (citation omitted). The fact that the alleged
perpetrator consistently denies an allegation is not sufficient
to establish that the prior allegation was untruthful. Id., 139.
Similarly, the fact that an alleged perpetrator was not
prosecuted does not establish that a prior allegation was
untruthful because a prosecutor has '"broad discretion in
determining whether to charge an accused."' Id., 140
(citation omitted).
According to an incident report by the Milwaukee
Police, Jasmine B. told the police that she was sexually
assaulted by Michael C. Ten years old at the time she
reported the offenses, Jasmine B. provided a graphic account
of Michael C.'s assaults six years earlier, which occurred
when she was only four years old. Jasmine B. has
consistently maintained that Michael C. assaulted her,
although she has at times been unwilling to talk about the
assaults. Little contends that the fact that Michael C. was not
prosecuted undermines Jasmine B.'s allegations, particularly
because the prosecutor noted that there were some
inconsistencies in her accounts of the assaults. Ringer
squarely rejected this line of argument. See id., ^|40 (non­
prosecution of an alleged offense does not establish that a
prior allegation was untruthful because a prosecutor has
broad discretion in determining whether to charge). Stated
differently, "[t]he intrinsic veracity of the complainant's
[prior] accusations should not be confused with the State's
Page 9 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 9 of 20 Document 40

inability to meet its burden of proof for a criminal
conviction." See People v. Alexander, 452 N.E.2d 591, 595 (Ill.
App. 1 Dist. 1983). The circuit court properly denied Little's
postconviction argument that the circuit court should have
admitted evidence that Jasmine B. made what he
characterizes as prior untruthful allegations of sexual assault
against another man on the grounds that no reasonable jury
would be able to conclude that the prior allegations were, in
fact, false.
(Docket #15-2 at 2-3).
The Wisconsin appellate court decision was not erroneous. Little
complains that it was impossible for him to show that J.B. was untruthful
in Tier-ullegations-against Michael -G.—asthey -rested "-solely on the
ere dibility of the complainant" and there was no physical evidence or any
witness to corroborate her statements. (Docket #20 at 6). In Little's view,
the Wisconsin courts held him to too high a standard—they required him
to actually prove that J.B.'s allegations were false, rather than simply
consider whether a reasonable jury could so find, and they required him
to produce independent evidence to do so. See id. at 6-7. Little believes
that Michael C.'s denial of wrongdoing, coupled with the prosecutor's
decision not to institute charges against him because of inconsistencies in
J.B.'s story, could lead a reasonable jury to disbelieve J.B.'s accusations
against Michael C. Id. at 7.
At the outset, Little misconstrues the state court's application of the
law. The Wisconsin Court of Appeals clearly acknowledged that the
relevant standard was whether a reasonable jury could find J.B.'s
accusations false, not whether Little had proven them to be demonstrably
false. See (Docket #15-2 at 2). The real question, then, is whether the court
unreasonably determined that this standard was not met.

Page 10 of 20

Case 2:16-cv-00805-JPS Filed 11/15/17 Page 10 of 20 Document 40

There existed more than sufficient evidence for the Wisconsin
Court of Appeals to reach its conclusion. First, the mere fact that Michael
C. would deny committing the prior assault is insignificant, given that
alleged perpetrators often deny wrongdoing. Ringer, 785 N.W.2d at 460.
Second, J.B. has never recanted her 2007 allegation against Michael C. See
id. ("The fact that she has never recanted her allegations weighs against a
jury's finding that the allegations were untruthful."). In fact, she repeated
it to others in subsequent years, although she was at times reluctant to
discuss the matter. Third, while charges were not brought against Michael
C., this does not undermine J.B.'s accusations. As observed in Ringer,
prosecutorial decisions are influenced by many considerations beyond the
truthfulness of the accusations. Id. The standard of proof in a criminal trial
is high, and the prospect of not meeting it was raised by inconsistencies in
J.B.'s telling of the assaults. Even so, J.B. has never recanted her allegations
against Michael C., and both her mother and her biological father, Rangel,
believed that she was assaulted by Michael C.
Little offers only his competing view of the facts, which he deems
to raise the possibility that a jury could find in his favor. See (Docket #29 at
2). Fie was not required to show irrefutably that J.B. lied, but his argument
does not support even the lesser conclusion that it was more likelv than
not that she lied. See Ringer, 785 N.W.2d at 458. Little's own belief that J.B.
lacked credibility is simply inadequate under Wisconsin law to support
the admissibility of Michael C.'s testimony.
The Wisconsin Court of Appeals correctly held that Little failed to
show that "a jury, acting reasonably, could find that it is more likely than
not that Q.B.] made prior untruthful allegations of sexual assault." Id. Had
defense counsel tried to introduce this evidence at trial, it would have
Page 11 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 11 of 20 Document 40

been excluded under Wisconsin's rape shield law. State v. Moats, 457
N.W.2d 299, 315 (Wis. 1990). Because this Court agrees with the state
courts that Michael C.'s testimony would be inadmissible under
Wisconsin's rape shield law, it also concurs that trial counsel was not
ineffective for failing to seek to introduce it.3
3.2

Due Process Violation

Little's other ground for relief is based primarily on an affidavit he
obtained from J.B.'s father, Rangel. Rangel averred that he pressured J.B.
to testify against Little at trial. Rangel's affidavit states, in relevant part,
that he "believed J.B.'s allegations against Mr. Little, so [he] made sure
that Little, got charged with sexual assault," that "J.B. was unwilling to
testify against [Little]," and that "[o]n Jan 28th, 2010 [Rangel] coerced, and
persuaded J.B. into testifying against Little." (Docket #15-9 at 36).
Little believes thal this newly discovered evidence show's that J.B.'s
statements were coerced and therefore false, and that this undermines the
case against him when considered with other evidence, including J.B.'s
recantation,

her inconsistent

statements

about

the

assaults,

and

photographs introduced at sentencing of J.B. posing with Little and
’Little complains that he was denied a hearing in state court during which
he could have questioned counsel about his failure to inquire with Michael C.
about the sexual assault allegations. (Docket #20 at 9). Because this Court, like the
state court, finds that the underlying claim is meritless, counsel's reasons for his
decision not to question Michael C. on this topic are immaterial. Additionally, to
the extent Little believes that testimony about the allegations against Michael C.
was admitted at trial, prejudicing him, see id.;, (Docket #39 at 4-6), the record
citation he provides does not support his position. In the portion of the trial
transcript Little cites, the witness testified that J.B. had made sexual assault
allegations against another person, but their truth or falsity was never discussed.
See (Docket #15-17 at 62-63). The testimony was offered merely to give context to
the 2007 investigation. There is no suggestion that the jury believed these other
allegations or that they had any effect on Little's case.
Page 12 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 12 of 20 Document 40

Michael C. from 2009, apparently showing that she liked the men. As a
result, he contends that the trial court wrongly denied him a new trial to
present Rangel's testimony alongside this other evidence. (Docket #20 at
10-15).
Both the Wisconsin trial and appellate courts found that Rangel's
testimony did not raise a reasonable probability that the outcome of
Little's trial would have been different had the testimony been introduced.
The Wisconsin Court of Appeals' decision on the matter reads, in relevant
part:
To prevail on a claim of newly discovered evidence,
the defendant must show, "by clear and convincing evidence
that '(1) the evidence was discovered after conviction; (2) the
defendant was not negligent in seeking evidence; (3) the
evidence is material to an issue in the case; and (4) the
evidence is not merely cumulative.'" State v. Love, 2005 WI
116,143, 284 Wis. 2d 111, 700 N.W.2d 62 (citation omitted). If
the defendant satisfactorily makes those showings, the
circuit court then "'must determine whether a reasonable
probability exists that a different result would be reached in
a trial.'" See id., 144 (citation omitted).
The circuit court originally determined that Little did
not sufficiently allege a reasonable probability of a different
result; its order denying reconsideration for a second time
effectively affirmed that ruling. We agree with the circuit
court's conclusions.
"A reasonable probability of a different outcome
exists if 'there is a reasonable probability that a jury, looking
at both the [old evidence] and the [new evidence], would
have a reasonable doubt as to the defendant's guilt."' Id., 144
(citation omitted; bracketed sections in Love). H.R.'s affidavit
indicates only that J.B. was an unwilling witness; there is no
suggestion that she was an untruthful one. Absent other
factual allegations, the simple fact that H.R. had to coerce or
persuade J.B. to testify does not in and of itself make her

Page 13 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 13 of 20 Document 40

testimony any less reliable or credible than if she were a
fully willing witness. Further, Little does not demonstrate
how this new evidence of J.B.'s unwillingness to testify and
her father's coercion to do so, when added to the old
evidence that was presented to the jury during trial, would
create reasonable doubt as to his guilt.
Nor does H.R.'s persuasion or coercion rise to the
level of a due process violation. Little tries to analogize his
"involuntary testimony" case to cases involving convictions
based on involuntary confessions. See Jackson v. Denno, 378
U.S. 368, 376 (1964) ("[A] defendant in a criminal case is
deprived of due process of law if his conviction is founded,
in whole or in part, upon an involuntary confession[.]"). But
Jackson deals with the conviction of an accused based on the
accused's own involuntary "Lontession.~ ATlssue in such a~
case is more than just due process-there is also a concern
about the defendant's right against self-incrimination. See id.
at 408 (Black, J., dissenting in part and concurring in part).
The concerns about compelled testimony are
necessarily different. In fact, "compulsory process for
securing favorable witnesses" and compelling their
attendance for the defendant's case is itself a necessary
component of due process. See State v. Schaefer, 2008 WI 25,
*j[63, 308 Wis. 2d 279, 746 N.W.2d 457. Thus, in the absence of
other facts, the mere fact that a witness's testimony has been
coerced, in the sense that the witness ultimately testified
despite her desire not to do so, does not cause us due
process concerns.
(Docket #15-7 at 4-6) (footnotes omitted).
The state court's conclusions were not unreasonable, and certainly
not contrary to Supreme Court precedent. "As a general rule, newly
discovered evidence that bears only on the question of guilt or innocence
is not re viewable by a federal court on a motion for habeas corpus relief."
Coogan v. McCaughtry, 958 F.2d 793, 801 (7th Cir. 1992). Nonetheless, "in
some situations newly discovered evidence is so compelling that it would

Page 14 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 14 of 20 Document 40

be a violation of the fundamental fairness embodied in the Due Process
Clause not to afford a defendant a new trial in which the evidence could
be considered." Id. (internal quotation marks and citations omitted);
]ohnson v. Bett, 349 F.3d 1030, 1038 (7th Cir. 2003). As the Supreme Court
has explained,
[c]laims of actual innocence based on newly discovered
evidence have never been held to state a ground for federal
relief absent an independent constitutional violation
occurring in the underlying state criminal proceeding. . . .
This rule is grounded in the principle that federal habeas
courts sit to ensure that individuals are not imprisoned in
violation of the Constitution—not to correct errors of fact.
Herrera v. Collins, 506 U.S. 390,400 (1993).
Little argues that the state courts denied him due process because
he was entitled to put on evidence that Rangel pressured J.B. to testify. He
believes that Rangel's testimony would be especially credible, given that
J.B.'s father would have little incentive to testify on behalf of the man
accused of sexually assaulting her. (Docket #20 at 12). However, as the
Wisconsin Court of Appeals rightly noted, Rangel's testimony raised no
inference that J.B.'s trial testimony was untruthful. At worst, Rangel
explained that J.B. was not happy about testifying and did not want to do
So.

But an unwilling witness cannot be presumed to be an untruthful
one. J.B. swore to tell the truth at trial, and Rangel does not affirmatively
state that she violated that oath. Thus, Rangel's affidavit does not move
the evidentiary mark at all, much less in Little's favor. Due process is not
offended when a witness testifies truthfully despite her inclination not do
so. See Samuel v. Frank, 525 F.3d 566, 569 (7th Cir. 2008) (holding that due

Page 15 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 15 of 20 Document 40

process is not implicated unless a coerced statement is "completely
unreliable"); State v. Samuel, 643 N.W.2d 423, 431-32 (Wis. 2002) (holding
that a witness' coerced statement is unreliable if, for instance, it is coached
or induced by threat).4
Little's challenge goes further, however. He maintains that the state
court failed to appreciate the full body of evidence favorable to him,
including not, only Rangel's coercion but also J.B.'s recantation, her
inconsistent statements about the assaults, and the 2009 photographs. Id.
at 11. According to Little, the 2007 recantation "was the last free and un­
coerced statement made by J.B." Id. at 12. Moreover, the appellate court
did not, in Little's opinion, properly consider the photographs as evidence
of J.B.'s goodwill toward Little, which was purportedly poisoned a few
weeks later by Raiigel's coercion. Id. Finally, says LiLtle, the state court did
not give due weight to J.B.'s inconsistent statements about the assaults to
law enforcement, which further undermined her credibility. Id.
These considerations, taken together, convince Little that J.B.'s
testimony was not the result of her own free will and was, in fact, false.
See id. at 15. The Court does not agree. The key to the legal standard here
is that the new evidence have some probative value favoring the
defendant such that it, coupled with the existing evidence, raises a
reasonable probability of a different result at trial. See State v. Love, 700
N.W.2d 62, 77 (Wis. 2005). Because Rangel's affidavit carried de minimis
probative value on the question of J.B.'s truthfulness, there was no cause
to consider whether the "old" evidence was bolstered by the addition of
4Little contends that Rangel would have averred that his daughter lied on
the stand but did not do so out of "forgetfulness." (Docket #39 at 13). Little
cannot unilaterally rewrite the record nor reconfigure Rangel's sworn statements
years after the fact.
Page 16 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 16 of 20 Document 40

the affidavit. Put differently, a request for a new trial based on newly
discovered evidence cannot involve merely a second look at the old
evidence. See State v. Armstrong, 683 N.W.2d 93, 2004 WL 1171676, at *9
(Wis. Ct. App. 2004), abrogated on other grounds, 700 N.W.2d 98 (Wis. 2005).
Rather, such a request is largely reliant upon the new evidence, since that
new evidence must make some difference to the outcome when
considered alongside the old. Consequently, Little s motion for new trial
was not wrongly denied.
More importantly, Little has directed this Court to no decision of
the Supreme Court that countermands the state court's decision. Mere
error in the appellate court's application of the newly discovered evidence
standard is not actionable on federal habeas review. See Moore v.
Casperson, 345 F.3d 474, 491 (7th Cir. 2003). Under the AEDPA, Little had
to show that the state adjudication "resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the
United States." 28 U.S.C. § 2254(d)(1). He has not done so. Thus, no relief
is available to him in this Court.

Page 17 of 20
Case 2-.16-CV-00805-JPS Filed 11/15/17 Page 17 of 20 Document 40

4.

CONCLUSION
For the reasons stated above, the Court finds that Little's asserted

grounds for relief are without merit. The petition must, therefore, be
dismissed.5
Under Rule 11(a) of the Rules Governing Section 2254 Cases, "the
district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant." To obtain a certificate of
appealability under 28 U.S.C. § 2253(c)(2), Petitioner must make a
"substantial showing of the denial of a constitutional right" by
establishing that "reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved in a different
5As noted above and explained at length in an earlier order, Little briefed
a third argument to this Court: that the evidence, considered holistically, was too
unreliable and infected with coercion and inconsistency to support a conviction.
(Docket #20 at 15-17). It was not clear until Little filed his reply, (Docket #39),
that he was proffering an insufficiency-of-the-evidence theory under Jackson v.
Virginia, 443 U.S. 307 (1979). Jackson holds that due process is violated if no
rational trier of fact could have found the essential elements of the crime beyond
a reasonable doubt on the evidence presented. Id. at 318-19. The reviewing court
may set aside the verdict on the ground of insufficient evidence only if no
rational trier of Tact could have agreed. Coleman v. Johnson, 566 U.S. 650, 651
(2012).
Little asked the Court to dismiss this third ground tor relief, and it did so.
(Docket #16, #21). Five months afterward, he asked the Court to walk back its
order, stating that he wanted to pursue a claim that his conviction "restjed]
entirely on coerced, false, involuntary, [and] inconsistent testimony[.]” (Docket
#1 at 8); (Docket #33). He did not identify it as a Jackson-style claim in that
motion. See (Docket #33).
The Court did not permit this claim to go forward, as Little himself had
asked the Court to.dismiss it. (Docket #34 at 2). Further, the record demonstrates
that no such claim was ever presented to the Wisconsin courts in the first
instance. See id. at 4 n.l. Because the claim remains unexhausted, the Court
cannot consider it, particularly since Little makes no effort whatsoever to explain
why he failed to exhaust the claim. See 28 U.S.C. § 2254(b)(1)(A); Dressier v.
McCaughtry, 238 F.3d 908, 912 (7th Cir. 2001).

Page 18 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 18 of 20 Document 40

manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003) (internal citations omitted). As the Court's discussion above makes
clear, in light of the facts presented and Little's rehashed arguments from
his state proceedings, no reasonable jurists could debate whether
Petitioner's petition is without merit. As a consequence, the Court is
compelled to deny him a certificate of appealability.
Finally, the Court closes with some information about the actions
that Little may take if he wishes to challenge the Court's resolution of this
case. This order and the judgment to follow are final. A dissatisfied party
may appeal this Court's decision to the Court of Appeals for the Seventh
Circuit by filing in this Court a notice of appeal within thirty days of the
entry of judgment. Fed. R. App. P. 3, 4. This Court may extend this
deadline if a party timely requests an extension and shows good cause or
excusable neglect for not being able to meet the 30-day deadline. Id.
4(a)(5)(A). Moreover, under certain circumstances, a party may ask this
Court to alter or amend its judgment under Federal Rule of Civil
Procedure 59(e) or ask for relief from judgment under Federal Rule of
Civil Procedure 60(b). Any motion under Federal Rule of Civil Procedure
• Jr

59(e) must be filed within twenty-eight days of the entry of judgment. The
Court cannot extend this deadline. Fed. R. Civ. P. 6(b)(2). Any motion
under Federal Rule of Civil Procedure 60(b) must be filed within a
reasonable time, generally no more than one year after the entry of the
judgment. The court cannot extend this deadline. Id. A party is expected to
closely review all applicable rules and determine what, if any, further
action is appropriate in a case.

Page 19 of 20

Case 2:16-cv-00805-JPS Filed 11/15/17 Page 19 of 20 Document 40

Accordingly,
IT IS ORDERED that Petitioner's petition for a writ of habeas
corpus (Docket #1) be and the same is hereby DENIED;
IT IS FURTHER ORDERED that a certificate of appealability as to
Petitioner's petition be and the same is hereby DENIED; and
IT IS FURTHER ORDERED that this action be and the same is
hereby DISMISSED.
The Clerk of the Court is directed to enter judgment accordingly.
Dated at Milwaukee, Wisconsin, this 15th day of November, 2017.
BY THE COURT:

U.S. District Judge

Page 20 of 20
Case 2:16-cv-00805-JPS Filed 11/15/17 Page 20 of 20 Document 40

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ANTUAN VALENTINO LITTLE,
Petitioner,
v.

Case No. 16-CV-805-JPS

WARDEN BRIAN FOSTER,

JUDGMENT
Respondent.

Decision by Court. This action came on for consideration before the Court
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Petitioner's petition for a
writ of habeas corpus (Docket #1) be and the same is hereby DENIED;
IT IS FURTHER ORDERED AND ADJUDGED that a certificate
of appealability as to Petitioner's petition be and the same is hereby
DENIED; and
IT IS FURTHER ORDERED AND ADJUDGED that this action be
and the same is hereby DISMISSED.
PPRQVED:

tueiler
>. Di&ncTjudge

i.P. Si

November 15, 2017
Date

STEPHEN C. DRIES
Clerk of Court
s/ Jodi L. Malek
By: Deputy Clerk

Case 2:16-cv-00805-JPS Filed 11/15/17 Page 1 of 1 Document 41

;

)

5.

COURT OF APPEALS
DECISION
DATED AND FILED
January 3,2013
Diane M. Fremgen
Clerk of Court of Appeals

Appeal No.

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See Wis. Stat. § 808.10
and Rule 809.62.

Cir. CL No. 2009CF4131

2011AP2431-CR

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT I

State of Wisconsin,
Plaintiff-Respondent,
v.
Antuan V. Little,
Defendant-Appellant.

APPEAL from a judgment and an order of the circuit court for
Milwaukee County: REBECCA F. DALLET, Judge. Affirmed.
Before Curley, P.J., Fine and Kessler, JJ.
51

PER CURIAM. Antuan V. Little appeals a judgment convicting

him of one count of first-degree sexual assault of a child under the age of thirteen
and one count of exposing a child to harmful material. He also appeals an order
denying his motion for postconviction relief. He argues: (1) that his lawyer

No. 2011AP2431-CR

ineffectively assisted him because his lawyer should have sought admission of
evidence that the child victim, Jasmine B., made what he characterizes as prior
untruthful allegations of sexual assault against another man; (2) that he is entitled
to a new trial in the interest of justice because the allegedly untruthful allegations
were not admitted at trial; and (3) that his lawyer ineffectively represented him by
failing to object to the prosecutor’s statements in closing argument about
Jasmine B.’s recantation of the accusation against him and by failing to elicit
additional testimony showing inconsistencies in her accounts of the sexual assault.
We reject these arguments. Therefore, we affirm.
52

Little first argues that his lawyer ineffectively represented him

because his lawyer did not seek admission of evidence that Jasmine B. previously
made what he characterizes as untruthful allegations that another man, Michael C.,
had sexually assaulted her.

“‘[I]n order to admit evidence of alleged prior

untruthful allegations of sexual assault’ ... the circuit court must first conclude
from the proffered evidence that a jury could reasonably find that the complainant
made prior untruthful allegations of sexual assault.” State v. Ringer, 2010 WI 69,
J31, 326 Wis. 2d 351, 785 N.W.2d 448 (citation omitted). The fact that the
alleged perpetrator consistently denies an allegation is not sufficient to establish
that the prior allegation was untruthful. Id., 5139. Similarly, the fact that an
alleged perpetrator was not prosecuted does not establish that a prior allegation
was untruthful because a prosecutor has ‘“broad discretion in determining whether
to charge an accused.’” Id., 540 (citation omitted).
513

According to an incident report by the Milwaukee Police, Jasmine B.

told the police that she was sexually assaulted by Michael C. Ten years old at the
time she reported the offenses, Jasmine B. provided a graphic account of
Michael C.’s assaults six years earlier, which occurred when she was only four
2

No. 2011AP2431-CR

years old. Jasmine B. has consistently maintained that Michael C. assaulted her,
although she has at times been unwilling to talk about the assaults. Little contends
that the fact that Michael C. was not prosecuted undermines.Jasmine B.’s
allegations, particularly because the prosecutor noted that there were some
inconsistencies in her accounts of the assaults. Ringer squarely rejected this line
of argument.

See id., J40 (non-prosecution of an alleged offense does not

establish that a prior allegation was untruthful because a prosecutor has broad
discretion in determining whether to charge). Stated differently, “[t]he intrinsic
veracity of the complainant’s [prior] accusations should not be confused with the
State’s inability to meet its burden of proof for a criminal conviction.” See People
v. Alexander, 452 N.E.2d 591, 595 (Ill. App. 1 Dist. 1983). The circuit court
properly denied Little’s postconviction argument that the circuit court should have
admitted evidence that Jasmine B. made what he characterizes as prior untruthful
allegations of sexual assault against another man on the grounds that no reasonable
jury would be able to conclude that the prior allegations were, in fact, false.

54

Little next argues that he is entitled to a new trial pursuant to Wis.

STAT. § 752.35 (2009-10),1 which provides that we have the discretionary power
to reverse a judgment where the real controversy was not fully tried or it is
probable that justice has for any reason miscarried. See VoUmer v. Luety, 156
Wis. 2d 1, 17, 456 N.W.2d 797 (1990). Little’s claim is premised on the same
argument we rejected above. We see no reason to exercise our discretionary
power to grant Little a new trial under § 752.35.

1 All references to the Wisconsin Statutes are to the 2009-10 version unless otherwise
noted.

3

No. 2011AP2431-CR

55

Little next argues that his trial lawyer ineffectively represented him

because his lawyer did not object to the prosecutor’s statements during closing
argument about the victim’s recantation of her accusation against him and did not
elicit testimony showing inconsistencies in her accounts of the sexual assault. To
prove a claim of ineffective assistance of counsel, a defendant must show that his
lawyer’s performance was deficient and that the deficient performance prejudiced
him. Strickland v. Washington, 466 U.S. 668, 687 (1984). “The proper measure
of attorney performance remains simply reasonableness under prevailing
professional norms.” Id. at 688.
?6

Little contends that his lawyer should have objected during closing

argument when the prosecutor said that Jasmine B. had recanted her allegations
against him because she knew her mother loved him and relied on him, and she
did not want to make her mother sad.

“The line between permissible and

impermissible [closing] argument is ... drawn where the prosecutor goes beyond
reasoning from the evidence to a conclusion of guilt and instead suggests that the
jury arrive at a verdict by considering facts other than the evidence.” State v.
Draize, 88 Wis. 2d 445,454,276 N.W.2d 784 (1979).

V

The prosecutor’s comments in the closing argument were proper

because they were squarely based on testimony at trial. Jasmine B. testified that
she did not tell her mother about the assaults because she did not want her mother
to feel bad and she knew how much her mother loved Little. Jasmine B.’s concern
for her mother’s feelings was corroborated by Police Officer Karla Lehmann, who
testified that Jasmine B. begged Lehmann not to tell her mother about the assaults
when she first reported them, writing Lehmann a note during their interview that
said, “Please, please, please, please, please don’t tell my mom!!!” Jasmine B. also
drew a sad face with tears streaming from it on the note. Little’s lawyer did not
4

No. 2011AP2431-CR

perform deficiently by failing to object to the closing argument because the
closing argument was based on the trial testimony, and therefore any objection
would have been overruled.
J8

Little also argues that his lawyer should have elicited testimony at

trial from the Sensitive Crimes Division officer that Jasmine B. told her she lied
when she said that Little assaulted her and she accused him because she was angry
with him. Little contends that this testimony would have shown that Jasmine B.’s
accounts of the assault were inconsistent and would have therefore tended to
exonerate him.
59

At the Machnef hearing, Little’s lawyer explained that he made a

strategic choice not to elicit testimony to this effect for two reasons. First, he did
not want another prosecutor or police officer testifying about Jasmine B.’s
recantation to the jury because that would open the door to more testimony about
why children recant, thus possibly engendering more sympathy for Jasmine B.
Second, he decided to pursue a strategy he thought would be more effective than
arguing that Jasmine B. falsely accused Little simply because she was mad at him;
instead, he argued that Jasmine B.’s rationale for saying the things that she did was
that she wanted to live with her dad, which he thought the jury would be more
likely to believe.

Where, as here, a lawyer makes informed and reasonable

strategic choices about how to proceed at trial, we will not second-guess those
decisions.

See Strickland, 466 U.S. at 689.

“{Strategic choices made after

thorough investigation of law and facts relevant to plausible options are virtually
unchallengable.”

Id. at 690.

We reject the argument that Little received

2 See State v. Machner, 92 Wis. 2d 797,285 N.W.2d 905 (Ct. App. 1979).

5

No. 2011AP2431-CR

ineffective assistance from his lawyer because his lawyer had sound strategic
reasons for not eliciting information about the recantation at trial.
By the Court.—Judgment and order affirmed.
This opinion will not be published.
809.23(l)(b)5.

6

See Wis. Stat. Rule

Office of the Clerk

WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
P.O. Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT I
September 22,2015
To:
Hon. Rebecca F. Dallet
Circuit Court Judge
Branch 40
821 W State St
Milwaukee, WI53233

Karen A. Loebel
Asst District Attorney
821 W. State St
Milwaukee, WI 53233
Tiffany M. Winter
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

John Barrett
Clerk of Circuit Court
Room 114
821 W. State Street
Milwaukee, WI 53233

AntuanV. Little 395594
Kettle Moraine Corr. Inst
P.O. Box 282
Plymouth, WI 53073-0282

You are hereby notified that the Court has entered the following opinion and order:
2014AP1925

State of Wisconsin v. Antuan V. Little (L.C. #2009CF4131)

Before Curley, P.J., Kessler and Bradley, JJ.
Antuan V. Little, pro se, appeals from an order of the circuit court that denied his second
motion for reconsideration of an order that denied his motion for a new trial based on newly
discovered evidence. Based upon our review of the briefs and record, we conclude at conference
that this case is appropriate for summaiy disposition. See Wis. Stat. Rule 809.21 (2013-14).1
The order is summarily affirmed.

i

All references to the Wisconsin Statutes are to the 2013-14 version unless otherwise noted.

Case 2:16-cv-00805-CNC Filed 12/19/16 Page 1 of 6 Document 15-7
Y
i

No. 20I4AP1925

In 2007, J.B. accused Little of sexual assault The district attorney declined to prosecute
the case at the time, citing inconsistencies in J.B.’s statements. J.B. then recanted the allegations.
In 2009, J.B. renewed her accusations against Little, telling investigators that she was doing so at
her father’s insistence. Little was charged with and, in 2010, convicted by a jury of one count of
exposing a child to harmful materials and one count of first-degree sexual assault of a child. He
was sentenced to a total of eleven years' initial confinement and six years’ extended supervision.
We affirmed the judgment in his direct appeal. See Staie v. Little, No. 2011AP2431-CR,
unpublished slip op. (WI App Jan. 3,2013).
On April 24, 2014, Little moved for a new trial based on newly discovered evidence.
Specifically, Little presented an affidavit from J.B.’s father, H.R. This affidavit states, in
relevant part, that H.R. “believed J.B.’s allegations against Mr. Little, so [he] made sure that
Little, got charged with sexual assault,” that “J.B. was unwilling to testify against [Little],” and
that “[o]n Jan 28th, 2010 [H.R.] coerced, and persuaded J.B. into testifying against Little.” In his
motion, Little asserted that H.R.’s “coercion forced the [State’s] key witness to testify falsely
against Little.” The circuit court denied the motion on April 30, 2014, noting that there was
nothing in H.R.’s affidavit to “support the proposition that the victim lied about what had
occurred” and that Little “has not submitted any corroborating evidence for his claim that the
victim’s testimony was false.”
On May 22,2014, Little moved for reconsideration, asserting that a Facebook post from
J.B. was a “new claim of rape”2 and that while Little could not prove J.B. had lied, his evidence
2 The post, as reproduced as an exhibit to Little’s motion, bears a time stamp indicating that it
was posted “51 minutes ago,” but it has no other date or time indicators, and it mentions no names.

2

Case 2:16-cv-00805-CNC Filed 12/19/16 Page 2 of 6 Document 15-7

mm*:

No. 20I4AP1925

665 N.W.2d 136; Harris v. Reivitz, 142 Wis. 2d 82, 88, 417 N.W.2d 50 (Ct. App. 1987).
Though the issues raised in the second reconsideration motion relate to the newly discovered
evidence claim of the original motion, the due process claim sufficiently presents a new issue to
confer jurisdiction.3 See Harris, 142 Wis. 2d at 88.
A defendant whose postconviction motion alleges sufficient material facts that, if true,
entide the defendant to relief is entitled to a hearing on the motion. See State v. Alien, 2004 WI
106,19, 274 Wis. 2d 568, 682 N.W.2d 433. If the motion does not raise sufficient facts or
presents only conclusory allegations, or if the record conclusively demonstrates that the
defendant is not entided to relief the circuit court’s decision to grant or deny a hearing is
discretionary. See id.
To prevail on a claim of newly discovered evidence, the defendant must show, “by clear
and convincing evidence that ‘(l)the evidence was discovered after conviction; (2) the
defendant was not negligent in seeking evidence; (3) the evidence is material to an issue in the
case; and (4) the evidence is not merely cumulative.’” State v. Love, 2005 WI 116,143, 284
Wis. 2d 111, 700 N.W.2d 62 (citation omitted). If the defendant satisfactorily makes those
showings, the circuit court then ‘“must determine whether a reasonable probability exists that a
different result would be reached in a trial.’” See id., 144 (citation omitted).

3 It is not dispositive to our jurisdiction that Little did not know he should appeal until the circuit
court told him, with the second reconsideration motion, that his remedy was by appeal if he disagreed
with die circuit court It is also not dispositive to our jurisdiction that Little considered his
“supplemental” reconsideration motion and the first reconsideration motion to be “one ongoing motion.”

4
Case 2:16-cv-00805-CNC Filed 12/19/16 Page 4 of 6 Document 15-7

No. 2014AP1925

The circuit court originally determined that Little did not sufficiently allege a reasonable
probability of a different result; its order denying reconsideration for a second time effectively
affirmed that ruling.4 We agree with the circuit court’s conclusions.
“A reasonable probability of a different outcome exists if ‘there is a reasonable
probability that a jury, looking at both die [old evidence] and the [new evidence], would have a
reasonable doubt as to the defendant’s guilt.’” Id., 1(44 (citation omitted; bracketed sections in
Love). H.R.’s affidavit indicates only that J.B. was an unwilling witness; there is no suggestion
that she was an untruthful one. Absent other factual allegations, the simple fact that H.R. had to
coerce or persuade J.B. to testify does not in and of itself make her testimony any less reliable or
credible than if she were a fully willing witness. Further, Little does not demonstrate how this
new evidence of J.B.’s unwillingness to testify and her father’s coercion to do so, when added to
the old evidence that was presented to the jury during trial, would create reasonable doubt as to
his guilt
Nor does HJL’s persuasion or coercion rise to the level of a due process violation. Little
tries to analogize his “involuntary testimony” case to cases involving convictions based on
involuntary confessions. See Jackson v. Denno, 378 U.S. 368,376 (1964) (“[A] defendant in a
criminal case is deprived of due process of law if his conviction is founded, in whole or in part,
upon an involuntary confession[.]”).s But Jackson deals with the conviction of an accused based
4 The circuit court appears to have assumed that Little fulfilled the first four prongs of the test
For purposes of this opinion, we do so as well, although we do question whether H.R.’s affidavit truly
amounts to newly discovered evidence, considering that J.B. told investigators in 2009 that she was
making a complaint against Little at her father’s urging.
3 Defendant Jackson was questioned while in the hospital, being treated for two serious gunshot
wounds, while medicated and awaiting surgery.

5
Case 2:16-cv-00805-CNC Filed 12/19/16 Page 5 of 6 Document 15-7

No. 20 HAP 1925

on the accused's own involuntary confession. At issue in such a case is more than just due
process—there is also a concern about the defendant's right against self-incrimination. See id. at
408 (Black, J., dissenting in part and concurring in part).
The concerns about compelled testimony are necessarily different In fact, “compulsory
process for securing favorable witnesses” and compelling their attendance for the defendant’s
case is itself a necessary component of due process. See State v. Schaefer, 2008 WI25, TJ63,308
Wis. 2d 279,746 N.W.2d 457. Thus, in the absence of other facts, the mere fact that a witness’s
testimony has been coerced, in the sense that the witness ultimately testified despite her desire
not to do so, does not cause us due process concerns.
Because Little has not adequately alleged a reasonable probability of a different result at
a new trial, the decision to grant or deny a hearing was a discretionary matter.6 As such, we
discern no erroneous exercise of discretion when the circuit court declined to grant the second
motion to reconsider its order denying relief without a hearing.
IT IS ORDERED that the order is summarily affirmed.

Diane M. Fremgen
Clerk ofCourt ofAppeals

6 Little believes he was entitled to a hearing on his motion because he alleged that J.B. gave false
testimony and, if that allegation were true, he would be entitled to relief. However, the allegations in a
postconviction motion must not be conclusory. See State v. Allen, 2004 WI 106, ^9, 274 Wis. 2d 568,
682 N.W.2d 433. Little’s claim, that if J.B. had to be persuaded to testify, then the testimony must have
been false, is conclusory.

6
Case 2:16-cv-00805-CNC Filed 12/19/16 Page 6 of 6 Document 15-7

Office of the Clerk

JSupratxt Glxmrt 0I ffix&cxn&sfax
110 East Main Street, Suite 215
P.O.Box 1688
Madison, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

June 12,2013
To:

Hon. Rebecca F. Dallet
Circuit Court Judge, Br. 40
821 W. State St.
Milwaukee, WI 53233
John Barrett
Cleric of Circuit Court
821 W. State St, Rm. 114
Milwaukee, WI 53233

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233
\-^arguerite M. Moeller
Assistant Attorney General
P.O.Box7857 ‘
Madison, WI 53707-7857

Hans P. Koesser
Koesser Law Office, S.C.
P.O. Box 941
Kenosha, WI 53141-0941
You are hereby notified that the Court has entered the following order.

No. 2011AP2431-CR

State v. Little L.C.#2009CF4131

A petition for review pursuant to Wis. Stat § 808.10 having been filed on behalf of
defendant-appellant-petitioner, AntuanV. Little, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.
Diane M.Fremgen
Clerk of Supreme Court

•i

Case 2:16-cv-00805-CNC Filed 12/19/16 Page 1 of 1 Document 15-3

Office of the Clerk

jgupremi! Court a£ JBtscottstn
110 East Main Street, Suite 215
P.O.Box 1688
Madison, WI 53701-1688
TELEPHONE (608)266-1880
Facsimile (608) 267-0640
Web Site: mvw.wicourts.gov

Jime 12,2013
To:

Hon. Rebecca F. Dallet
Circuit Court Judge, Br. 40
821 W. State St.
Milwaukee, WI 53233
John Barrett
Clerk of Circuit Court
821 W. State St, Rm. 114
Milwaukee, WI 53233

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233
l^^Eairguerite M. Moeller
Assistant Attorney General
P.O.Box7857 '
Madison, WI 53707-7857

Hans P. Koesser
Koesser Law Office, S.C.
P.O. Box 941
Kenosha, WI 53141-0941
You are hereby notified that the Court has entered the following order:

, No. 2011AP2431-CR

State v. Little L.C.#2009CF4131

A petition for review pursuant to Wis. Stat § 808.10 having been filed on behalf of
defendant-appellant-petitioner, Antuan V. Little, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.
Diane M. Fremgen
Clerk of Supreme Court

>'

Case 2:16-cv-00805-CNC Filed 12/19/16 Page 1 of 1 Document 15-3

525 Fed.Appx. 433
This case was not selected for publication in the Federal Reporter.
Not for Publication in West's Federal Reporter.
. See Fed. Rule of Appellate Procedure 32.1 generally governing citation of judicial decisions issued on or after Jan. 1,
2007. See also Seventh Circuit Rule 32.1. (Find CTA7 Rule 32.1)
United States Court of Appeals,
Seventh Circuit.

Ronda HAMILTON, Plaintiff-Appellant,
v.
%

Carolyn W. COLVIN, Acting Commissioner of Social Security, Defendant-Appellee.
% % V

No. 12-3085.
Argued Jan. 29, 20i3.Decided May 3, 2013.
Synopsis
Background: Claimant brought action against Commissioner of Social Security challenging denial of her claim for
disability insurance benefits (DIB). The United States District Court for the Northern District of Illinois, Arlander Keys,
United States Magistrate Judge, 2012 WL 3096692, entered summary judgment for the Commissioner. Claimant
appealed.
Holdings: The Court of Appeals held that:
1 substantial evidence did not support ALJ's adverse credibility finding;
2 ALJ erroneously called the opinions of claimant's treating physicians generally consistent with ALJ's residual
functional capacity (RFC) determination; and
3 ALJ inadequately justified rejecting the conclusion of physical therapist that claimant could sit for only 20 minutes.
Vacated and remanded.
On AppealMotion for Summary Judgment

West Headnotes (3)Coltapse West Headnotes
Change View
1 Social Security

Credibility of claimant

ALJ's adverse credibility finding regarding disability insurance benefits (DIB) claimant was not supported by
substantial evidence; contrary to the ALJ, claimant's testimony at the first hearing that the amount of time she could
sit depended on the chair was consistent with her testimony at the second hearing that she could sit for 20 minutes
unless she was in her recliner, ALJ also misrepresented claimant's testimony when she found that claimant denied
taking prescription pain medication at her first hearing, ALJ's decision implied that ALJ improperly settled on
claimant's residual functional capacity (RFC) before assessing claimant's credibility, and ALJ's view of claimant's
daily activities improperly ignored her testimony of the length of time she took to complete activities and that she
must spend half an hour lying in bed four to five times a day.
42 Cases that cite this headnote
2Social Security

Exertional requirements and limitations; light or sedentary work
ALJ erroneously called the opinions of disability insurance benefits (DIB) claimant's treating physicians generally
consistent with ALJ's residual functional capacity (RFC) determination that claimant was limited to sedentary work
with the option to stand every 45 minutes; claimant's neurologist opined that she could sit in a firm chair for no more
than 20 to 30 minutes and that claimant was disabled, and vocational expert (VE) testified that a person must be
able to sit for at least 45 minutes in order to hold a full-time, sedentary job. 20 C.F.R. §§
404.1527(dX2), 416.927(e)(2).
45 Cases that cite this headnote
3Social Security

Ability to work; residual functional capacity
ALJ inadequately justified rejecting the conclusion of disability insurance benefits (DIB) claimant's physical therapist
that claimant could sit for only 20 minutes; ALJ merely stated that the record did not support the therapist’s finding,
which was an empty explanation in tension with the testimony of the medical expert, who repeated therapist's
opinion that claimant could sit for only 20 minutes without suggesting that he disagreed or that the opinion was
unsupported by the medical record.
6 Cases that cite this headnote
*434 Appeal from the United States District Court for the Northern District of Illinois, Eastern Division. No. 11 C
6471, Arlander Keys, Magistrate Judge.

Attorneys and Law Firms
John Edward Horn, Attorney, Tinley Park, IL, for Plaintiff-Appellant.

• •«

Julie Loraine Bentz, Attorney, Social Security Administration Office of the General Counsel, Chicago, IL, for
Defendant-Appellee.

Before WILLIAM J. BAUER, Circuit Judge, ANN CLAIRE WILLIAMS, Circuit Judge, DAVID F. HAMILTON, Circuit
Judge.
ORDER
Ronda Hamilton was in a car accident in 2005 and sustained back and shoulder injuries. These injuries, she says,
cause pain that prevents her from working full time. She sought disability insurance benefits under Title II of the
Social Security Act, but an ALJ denied her claim, finding that she is actually capable of full-time sedentary work and
that she exaggerated her limitations when she testified. After the Appeals Council declined to review this
decision, Hamilton sued in federal district court, which entered summary judgment for the Commissioner. Because
the ALJ did not support her findings with substantial evidence, we vacate the district court's judgment and remand
for further proceedings consistent with this order.
Back pain is Hamilton's chief complaint, and the length of time that she can tolerate sitting is the primary issue in
this case. If she can sit for intervals of only about 20 minutes, as she claims, Hamilton is disabled. But if, as the ALJ
found, she can sit for at least 45-minute stretches, there *435 are a significant number of sedentary jobs she can
perform, and she is not disabled.
Hamilton's back pain started in 2005 when she was in a car accident and sustained a compression fracture to her
first lumbar vertebra, a tom rotator cuff, and pelvic injuries. Her fractured vertebra touches her spinal cord, and she
has spinal stenosis (narrowing) and lesions in her sacral canal. Her treatment has included physical therapy,
prescription pain medications, spinal injections, surgery to repair her left rotator cuff, and medication to minimize her
“bladder spasms.” One of Hamilton's treating physicians, pain specialist Dr. Sheila Dugan, estimates
that Hamilton can sit “in a stiff chair” for only 20 to 30 minutes. Dr. Dugan adds that although Hamilton can handle
“about two hours” of sitting on a “soft surface,” the total sitting time that she can endure in a workday is under 6
hours. Another treating physician, neurologist Dr. Martin Luken, opined in 2007 that Hamilton suffers from “complex
pain syndrome” and is “completely disabled from the standpoint of gainful employment.” Dr. Luken also signed a
report that was completed by a physical therapist, Renee Spanberg, in 2009 after she gave Hamilton a “physical
performance test.” Ms. Spanberg reported that Hamilton's “maximum sitting tolerance was 20 continuous minutes.”
At Hamilton's first hearing before an ALJ, she testified that her injuries have drastically limited her daily activities.
The amount of time that she can sit “depends on what kind of chair I’m in ... if I'm sitting in a straight back chair it's
about 15 to 20 minutes, if I'm in a lazy boy or something that really supports my back I can sit for maybe an hour,
hour and a half.” She testified to taking Lyrica for pain. She also acknowledged that on one occasion, some months
before the hearing, she drove from northern Illinois to Kentucky, stopping to rest from driving only every couple of
hours.
After this hearing, the ALJ denied Hamilton's application for benefits, finding that she was not fully
credible. Hamilton had not, the ALJ wrote, sought medical treatment for years, which led him to surmise that her
pain could not be as severe as she had described. The Appeals Council, however, noticed that the ALJ's adverse
credibility finding was premised on a mistake—he had ignored Hamilton's continued receipt of physical therapy—
and remanded the case to a different ALJ for reconsideration and further evidence development.
At the second hearing the following year, Hamilton again described her sitting tolerance as “20 minutes, and that's
pushing it,” and she detailed her activities: She does some household chores but must perform them slowly and

take frequent breaks; she needs to lie down in bed four or five times a day after activity; she attends church weekly,
but she must stand at the back when she reaches her maximum sitting time. At the time of this hearing, she was
taking the prescription medications Flexeril (for pain relief) and over-the-counter ibuprofen. She had earlier been
prescribed Lyrica, Darvocet, and Oxycontin, but she explained that her doctors discontinued these pain medications
after she complained that they left her drowsy and disoriented.
Following Hamilton's testimony, a medical expert, Dr. Sheldon Slodki, testified that Hamilton's condition limits her
to “sedentary” employment. When Hamilton's attorney questioned him about the report of Ms. Spanberg, the
physical therapist, in which she said that Hamilton could tolerate only 20 minutes of sitting, Dr. Slodki observed that
the report's conclusion was consistent with Hamilton's testimony. *436 (He did not otherwise question or endorse
it.)
A vocational expert testified last. The ALJ asked her whether there are a significant number of jobs for people who
are confined to sedentary, unskilled work and cannot sit for more than 30 minutes, and the expert replied that there
are not, adding “generally I like to see 45 minutes.” The ALJ then asked whether there are jobs for those who can
tolerate sitting for at least 45 minutes. The expert answered that there are, and she reiterated that there are not a
significant number of sedentary jobs for people who can sit fewer than 45 minutes.
The ALJ concluded that Hamilton was not disabled and issued a decision once again denying her benefits. In the
ALJ's assessment, Hamilton has retained the ability to sit comfortably in a standard chair for 45 to 60 minutes,
which (as the vocational expert testified) would allow her to work jobs that exist in significant numbers. In reaching
this conclusion, the ALJ followed the standard five-step disability analysis. She found at steps one and two
that Hamilton has not engaged in substantial gainful activity since her accident and that she has two severe,
medically determinable impairments: low back pain secondary to a vertebral fracture and a left rotator cuff injury. At
step three, the ALJ found that neither of these impairments is listed in 20 CFR 404.1520(d), meaning that the
analysis must proceed to step four.
Before moving to step four, the ALJ assessed Hamilton's residual functional capacity (RFC) to be sedentary and
made the determination at the heart of this appeal: “The claimant requires a sit/stand option allowing her to sit or
stand alternatively at will every 45 to 60 minutes.” After finding that Hamilton could sit for at least 45 minutes, the
ALJ discussed Hamilton's credibility. She began with this familiar piece of boilerplate:
After careful consideration of the evidence, I find that the claimant's medically determinable impairments could
reasonably be expected to cause the alleged symptoms; however, the claimant's statements concerning the
intensity, persistence, and limiting effects of these symptoms are not credible to the extent they are inconsistent with
the above residual functional capacity.
The ALJ then characterized Hamilton’s hearing testimony as internally inconsistent and inconsistent with other
evidence. She wrote thatHamilton had testified at the first hearing that she can sit for an hour and at the second
hearing that she can sit for only 20 minutes. But the ALJ omitted Hamilton's testimony from the first hearing where
she said that in a standard chair she can sit for only 15 to 20 minutes. The ALJ also wrote that Hamilton's “activities
of daily living”—household chores, watching television, visiting friends, using a computer, going to church once a
week, and once driving to Kentucky with breaks only every couple of hours—are inconsistent with her asserted
limitations, but she did not explain how. Finally, although Hamilton testified at the first hearing that she was taking

